  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector General,
  DoD, home page at www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
CFO                   Chief Financial Officer
DFAS                  Defense Finance and Accounting Service
FBWT                  Fund Balance with Treasury
FFMIA                 Federal Financial Management Improvement Act of 1996
FMFIA                 Federal Managers’ Financial Integrity Act of 1982
FMIP                  Financial Management Improvement Plan
GPRA                  Government Performance and Results Act of 1993
IG                    Inspector General
ODO-GF                Other Defense Organizations-General Funds
OMB                   Office of Management and Budget
PP&E                  Property, Plant, and Equipment
SAS                   Statement on Auditing Standards
SFFAC                 Statements of Federal Financial Accounting Concepts
SFFAS                 Statements of Federal Financial Accounting Standards
USD(C)                Under Secretary of Defense (Comptroller)
USGSGL                U.S. Government Standard General Ledger
WCF                   Working Capital Fund
                          Office of the Inspector General, DoD
Audit Report No. D-2000-091                                               February 25, 2000
   (Project No. 0FI-2115.01)


            Internal Controls and Compliance With Laws and
        Regulations for the DoD Agency-Wide Financial Statements
                               for FY 1999

                                  Executive Summary

Introduction. The Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994, requires DoD to prepare annual audited financial
statements. This is the first in a series of reports related to the DoD Agency-Wide
financial statements for FY 1999.

The DoD Agency-Wide financial statements for FY 1999 are compiled from the financial
statements of the DoD reporting entities: the Army, Navy, and Air Force General Funds;
the Army, Navy, and Air Force Working Capital Funds; the Military Retirement Fund;
the U.S. Army Corps of Engineers, Civil Works Program; and financial data for the Other
Defense Organizations-General Funds and Working Capital Funds. In FY 1999, the DoD
Components reported total assets of $599 billion, total liabilities of $999 billion, total net
costs of operations of $378 billion, and total budgetary resources of $628 billion.

Audit Objectives. Our overall objective was to determine whether the DoD
Agency-Wide financial statements for FY 1999 were prepared in accordance with Office
of Management and Budget Bulletin No. 97-01, “Form and Content of Agency Financial
Statements,” October 16, 1996, as amended January 7, 2000. We also evaluated internal
controls and compliance with laws and regulations.

Disclaimer of Opinion. DoD did not provide the DoD Agency-Wide financial
statements for FY 1999 in time for us to perform all of the necessary audit work.
Therefore, we did not verify the reported amounts. However, we identified deficiencies
in internal controls and accounting systems related to $119.3 billion of general property,
plant, and equipment; inventory; $80 billion of environmental liabilities; $196 billion of
military retirement health benefits liability; and material lines within the Statement of
Budgetary Resources. Those deficiencies would have precluded an audit opinion. We
also identified $6.9 trillion in accounting entries to financial data used to prepare financial
statements for the Army, Navy, and Air Force General Funds; the Army, Navy, and Air
Force Working Capital Funds; Other Defense Organizations-General Funds; and Other
Defense Organizations-Working Capital Funds. For the accounting entries, $2.3 trillion
was not supported by adequate audit trails or sufficient evidence to determine their
validity, $2 trillion was not reviewed because of time constraints, and $2.6 trillion were
supported.

The financial data reported on the FY 1999 financial statements for the Army, Navy, and
Air Force General Funds and the Army, Navy, and Air Force Working Capital Funds
were unauditable and represented a significant portion of the financial data reported on
the DoD Agency-Wide financial statements for FY 1999. Because the financial
statements were not provided in a timely manner and because internal control
weaknesses, compilation problems, and deficiencies in financial management systems
continued to exist, we were unable to perform adequate audit tests of the various line item
amounts reported on the financial statements. Therefore, we do not express an opinion on
the DoD Agency-Wide financial statements for FY 1999. DoD has initiated numerous
actions to improve financial accounting, but the actions are not complete. The
unqualified opinion on the Military Retirement Fund is an example of positive
accomplishments by DoD.

Review of Internal Controls. We performed applicable tests of the internal controls to
determine whether the controls were effective and working as designed. However, these
tests did not provide sufficient evidence to support an opinion on internal controls;
therefore, we did not express an opinion on DoD internal controls. DoD internal controls
were not adequate to ensure that resources were properly managed and accounted for, that
DoD complied with applicable laws and regulations, and that the financial statements
were free of material misstatements. DoD internal controls did not ensure that
adjustments to financial data were fully supported and that assets and liabilities were
properly accounted for and valued. The material weaknesses and reportable conditions
we identified were also reported in the management representation letter for the DoD
Agency-Wide financial statements for FY 1999, the DoD Annual Statement of Assurance
for FY 1999, and the DoD Financial Management Improvement Plan.

Review of Compliance With Laws and Regulations. Our objective was to assess
compliance with laws and regulations related to the DoD Agency-Wide financial
statements for FY 1999 and not to express an opinion. Therefore, we did not express an
opinion on compliance with laws and regulations. DoD did not fully comply with laws
and regulations that had a direct and material affect on its ability to determine financial
statement amounts. We identified noncompliance issues related to the Federal Financial
Management Improvement Act of 1996; the Chief Financial Officers Act of 1990; section
3512, title 31, United States Code (formerly the Federal Managers’ Financial Integrity
Act of 1982); and the Government Performance and Results Act of 1993.

Management Comments. The Deputy Chief Financial Officer commented that the
Department did not have sufficient time to review and determine the validity of
individual assertions in the report. The DoD has a two-track approach to comply with
new Federal accounting standards. The DoD does not expect to have systems necessary
to meet these new requirements before the year 2003. The DoD has undertaken an
interim track that includes the use of contractors to address many of the existing
deficiencies. As a result, DoD expects to make incremental progress in addressing a
number of financial management challenges that impact the ability to produce audited
financial statements. Appendix C contains the full text of the comments.




                                            ii
Table of Contents

Executive Summary                                            i

Introduction
     Background                                              1
     Objectives                                              3

Review of Internal Controls
     Overview of Material Weaknesses                         4
     Internal Control Components                             4
     Assessment of Fraud Risk                               17
     Conclusion                                             19
     Management Comments                                    20

Review of Compliance With Laws and Regulations
     Reportable Noncompliances                              21
     Conclusion                                             24

Appendixes
     A. Audit Process
           Scope                                            25
           Methodology                                      27
           Summary of Prior Coverage                        28
     B. Laws and Regulations Reviewed                       29
     C. Under Secretary of Defense (Comptroller) Comments   31
     D. Report Distribution                                 32

Exhibits
     1. Management Representation Letter
     2. Legal Representation Letter
     3. Auditor Opinion
Introduction
Background
    Reporting Requirements. Public Law 101-576, the Chief Financial Officers Act
    of 1990, November 15, 1990, as amended by Public Law 103-356, the Federal
    Financial Management Act of 1994, October 13, 1994, requires DoD to prepare
    annual audited financial statements. In addition, the Federal Financial
    Management Act of 1994 requires the Secretary of the Treasury, in coordination
    with the Director, Office of Management and Budget (OMB), to prepare
    Government-wide financial statements beginning in FY 1997. The OMB
    Bulletin, “Audit Requirements for Federal Financial Statements,” establishes the
    minimum requirements for audits of Federal financial statements. This is the first
    in a series of reports related to the DoD Agency-Wide financial statements for
    FY 1999.

    Accounting Functions and Responsibilities. The Under Secretary of Defense
    (Comptroller) (USD[C]), as the Chief Financial Officer (CFO), is responsible for
    overseeing all financial management activities related to the programs and
    operations of DoD. The Defense Finance and Accounting Service (DFAS)
    performs accounting functions and prepares financial statements for DoD. DFAS
    operates under the control and direction of the USD(C). DFAS is responsible for
    entering information from DoD entities into finance and accounting systems,
    operating and maintaining the finance and accounting systems, and ensuring the
    continued integrity of the information entered. The DoD reporting entities are
    responsible for providing accurate financial information to DFAS through the
    feeder systems.

    Internal Control Responsibilities. As the CFO, the USD(C) oversees all financial
    management activities for DoD programs and operations, including the accounting
    functions of DFAS. The Military Departments, Defense agencies, and DoD field
    activities are responsible for managing their operations. Establishing and
    maintaining internal controls appropriate to the entity is an important management
    responsibility. The objectives of internal controls are to provide management with
    reasonable, but not absolute, assurance that:

           •   transactions are properly recorded and accounted for to permit the
               preparation of reliable financial statements and to maintain
               accountability over assets;

           •   funds, property, and other assets are safeguarded against waste, loss,
               unauthorized use, and misappropriation;

           •   transactions, including those related to obligations and costs, are
               executed in compliance with laws and regulations that could have a
               direct and material effect on the financial statements, and with any
               laws and regulations that OMB, DoD, or the Inspector General (IG),
               DoD, have identified as being significant and for which compliance
               can be objectively measured and evaluated; and



                                         1
       •   data that support reported performance measures are properly recorded
           and accounted for to permit preparation of reliable and complete
           performance information.

Compliance Responsibilities. The CFO is also responsible for compliance with
laws and regulations applicable to the DoD Agency-Wide financial statements.
The Military Departments, Defense agencies, and DoD field activities are
responsible for compliance with laws and regulations applicable to their
organizations. Compliance with laws and regulations is an important
management responsibility and is essential for proper financial reporting.

Accounting Policy. The DoD Agency-Wide financial statements for FY 1999
were to be prepared in accordance with OMB Bulletin No. 97-01, “Form and
Content of Agency Financial Statements,” October 16, 1996, as amended January
7, 2000. Footnote 1 to the financial statements discusses the significant
accounting policies followed in preparing the financial statements.

Scope of DoD Operations. In employment and discretionary spending authority,
DoD is the largest Government agency. In FY 1999, DoD employed about
2.1 million active-duty Service members and civilian personnel and about
1.35 million reservists and National Guard members. In FY 1999, the DoD
Components reported total assets of $599 billion, total liabilities of $999 billion,
total net costs of operations of $378 billion, and total budgetary resources of $628
billion.

Adequacy of DoD Guidance. DoD and DFAS reporting guidance were not
adequate. The DoD guidance did not adequately address reporting the elimination
of intergovernmental transactions, and instructed the DFAS Centers to make
forced entries so that accounting records would show balanced accounts. To
report amounts for accrued accounts payable, DFAS also instructed the DFAS
Centers to use data that could not be verified by auditors.

Disclaimer of Opinion. DoD did not provide the DoD Agency-Wide financial
statements for FY 1999 in time for us to perform all of the necessary audit work.
However, we identified deficiencies in internal controls and accounting systems
related to general property, plant, and equipment (PP&E); inventory;
environmental liabilities; military retirement health benefits liability; and material
lines within the Statement of Budgetary Resources. Those deficiencies would
have precluded an audit opinion. We also identified $2.3 trillion in accounting
entries to financial data used to prepare financial statements for the Army, Navy,
and Air Force General Funds and the Army, Navy, and Air Force Working Capital
Funds. Those accounting entries were not supported by adequate audit trails or
sufficient evidence to determine their validity.

The financial data reported on the FY 1999 financial statements for the Army,
Navy, and Air Force General Funds and the Army, Navy, and Air Force Working
Capital Funds were unauditable and represented a significant portion of the
financial data to be reported on the DoD Agency-Wide financial statements for
FY 1999.

Because the financial statements were not provided in a timely manner and
internal control weaknesses, compilation problems, and deficiencies in financial
management systems continued to exist, we were not able to perform adequate

                                      2
     audit tests of the various line item amounts reported on the financial statements.
     As a result, we do not express an opinion on the DoD Agency-Wide financial
     statements for FY 1999. Our disclaimer of opinion is at Exhibit 3.

Objectives
     Our overall audit objective was to determine whether the DoD Agency-Wide
     financial statements for FY 1999 were presented fairly in accordance with
     Generally Accepted Accounting Principles and OMB Bulletin No. 97-01, “Form
     and Content of Agency Financial Statements,” October 16, 1996, as amended
     January 7, 2000. As part of this objective, we determined whether internal
     controls were adequate to ensure that the DoD Agency-Wide financial statements
     for FY 1999 were free of material error, and we assessed DoD compliance with
     laws and regulations for transactions and events that had a direct and material
     effect on the financial statements.




                                          3
Review of Internal Controls
Overview of Material Weaknesses
    Reportable conditions are matters coming to our attention relating to significant
    deficiencies in the design or operation of the internal controls that, in our
    judgment, could adversely affect the organization’s ability to effectively control
    and manage its resources and to ensure reliable and accurate financial information
    for use in managing and evaluating operational performance. A material
    weakness is a reportable condition in which the design or operation of the internal
    controls does not reduce to a relatively low level the risk that errors or
    irregularities could occur. Such errors or irregularities would be in amounts that
    would be material to the statements being audited, and would not be detected in a
    timely manner by employees in the normal course of performing their functions.

    We performed applicable tests of the internal controls to determine whether the
    controls were effective and working as designed. However, these tests did not
    provide sufficient evidence to support an opinion on internal controls; therefore,
    we do not express an opinion on the DoD internal controls. DoD internal controls
    were not adequate to ensure that resources were properly managed and accounted
    for, that DoD complied with applicable laws and regulations, and that the
    financial statements were free of material misstatements. DoD internal controls
    did not ensure that accounting entries to financial data were fully supported and
    that assets and liabilities were properly accounted for and valued. The material
    weaknesses and reportable conditions we identified were also reported in the
    management representation letter for the DoD Agency-Wide financial statements
    for FY 1999 (Exhibit 1), the DoD Annual Statement of Assurance for FY 1999,
    and the DoD Financial Management Improvement Plan (FMIP).

    Statement on Auditing Standards (SAS) No. 82, “Consideration of Fraud in a
    Financial Statement Audit,” February 1997, requires us to specifically assess the
    risk of material misstatement of the financial statements because of fraud and to
    consider that assessment in designing audit procedures to be performed. We
    included an assessment of fraud risk in our review of internal controls.

Internal Control Components
    SAS No. 78, “Consideration of Internal Controls in a Financial Statement Audit:
    An Amendment to SAS No. 55,” December 1995, defines internal controls as a
    process performed by an entity’s board of directors, management, or other
    personnel, designed to provide reasonable assurance regarding the achievement of
    objectives in the following categories: reliability of financial reporting,
    effectiveness and efficiency of operations, and compliance with applicable laws
    and regulations. SAS No. 78 states that internal controls consist of five
    interrelated components:




                                         4
            •   the control environment,

            •   risk assessment,

            •   control activities,

            •   information and communication, and

            •   monitoring.


Control Environment
     The control environment includes factors that set the tone of an organization,
     influencing the control consciousness of its employees. The control environment
     includes several organizational factors, such as management’s philosophy and
     commitment to competence. The ability of DoD to prepare auditable financial
     statements would be improved if:

            •   DoD continued to revise system improvement plans;

            •   DoD provided adequate guidance to the DoD Components for
                preparing financial statements; and

            •   the CFO provided auditable and timely financial statements.

     We identified similar problems with DoD financial reporting guidance and
     financial statements for FYs 1998 and 1997. A discussion of these issues was
     included in IG, DoD, Report No. 99-097, “Internal Controls and Compliance With
     Laws and Regulations for the DoD Agency-Wide Financial Statements for FY
     1998,” March 1, 1999, and IG, DoD, Report No. 98-161, “Internal Controls and
     Compliance With Laws and Regulations for the DoD Consolidated Financial
     Statements for FY 1997,” June 22, 1998.

     Plans to Improve Financial Management. Auditors identified and DoD
     financial managers acknowledged that the overarching deficiency preventing
     favorable audit opinions is the lack of adequate financial management and feeder
     systems for compiling accurate and reliable financial data. In response, DoD
     implemented two major efforts to improve financial management, the FMIP and
     the DoD Implementation Strategies. Although DoD has made some progress in
     implementing these two major efforts, several factors have shown that DoD must
     continue to revise and improve these plans.

     DoD Financial Management Improvement Plan. DoD evaluated 44 of the 67
     systems identified as long-term critical finance, accounting, and feeder systems.
     The Office of the USD(C) tasked the DoD Components with completing the
     remaining system evaluations by March 31, 2000. System evaluations are the first
     step in preparing plans to correct deficiencies in financial management systems.
     DoD must continue to identify all critical finance, accounting, and feeder systems
     that affect the amounts reported on the financial statements and must clearly
     identify system deficiencies. DoD cannot provide reasonable



                                           5
estimates of the resources or milestones necessary to achieve favorable audit
opinions without a complete inventory of systems and specific plans to correct
system deficiencies.

        The FMIP acknowledged that the DoD managerial cost accounting
systems had several problems to overcome. These problems prevented effective
cost management. The FMIP did not discuss the details of the actions needed to
correct the cost accounting deficiencies. For example, DoD did not have adequate
managerial cost accounting systems in place to collect, process, and report $377.9
billion in total operating costs by program area consistent with DoD performance
plans. DoD was unable to adequately address managerial cost accounting system
deficiencies in the FMIP because DoD had not identified the cost accounting
information needed in order to establish program categories that were consistent
with Government Performance and Results Act performance plans. DoD must
determine and define its cost accounting requirements before discussing details of
actions needed to correct its deficient cost accounting systems.

         DoD Implementation Strategies. As an interim solution until compliant
financial management and feeder systems are in place, DoD was improving other
aspects of its financial management through various initiatives. One such
initiative was the development of DoD Implementation Strategies for financial
management areas needing improvement. In May 1998, the CFO began
developing Implementation Strategies to achieve a favorable opinion on the DoD
Agency-Wide financial statements until compliant financial management and
feeder systems are in place. As of January 2000, DoD had developed and
approved a total of 12 Implementation Strategies. The Office of Management and
Budget, the General Accounting Office, and the Inspector General, DoD,
reviewed each of the strategies and concluded that, generally, the strategies were a
reasonable short-term approach to removing impediments to favorable audit
opinions. However, additional information was needed to make some of the
strategies more complete. In addition, review of the proposed milestones for the
strategies showed that, in many cases, milestones had not been met and will need
to be revised. The Implementation Strategies are a step towards achieving a
favorable audit opinion. However, the Inspector General, DoD, USD(C), Office
of Management and Budget, and the General Accounting Office believe that the
DoD long-term plan needs to address additional areas related to financial
management systems and processes.

DoD Guidance. The DoD guidance did not require adequate support for intra-
Governmental eliminations. The DoD guidance provided instructions to adjust
the buyer-side data to agree with the seller-side data, without conducting the
proper research to reconcile the difference. For example, DFAS processed an
adjustment of $2.7 billion to the Army Working Capital Fund, adjusting to the
buyer-side data without any research or reconciliation. As a result, DoD reported
over $89.7 billion in intra-agency expenses and $4.4 billion in intra-agency
payables that could not be verified. Because intra-agency revenues and
receivables were not properly reconciled with expenses and payables, the
reliability of the earned revenues reported in the Statement of Net Cost and
Accounts Receivable reported on the Balance Sheet were questionable. DoD also
misstated the program costs on the Statement of Net Cost. DoD eliminated $89.7
billion from total earned revenue and total program costs without



                                     6
allocating the amounts to each program cost, as shown in OMB Bulletin
No. 97-01. Instead, DoD eliminated $89.7 billion from the bottom line total only.
Therefore, costs related to DoD programs were misstated.

Guidance Issued by DFAS. DFAS issued guidance to its personnel to record
accounts payable on the financial statements. However, the DFAS guidance
instructed the DFAS Centers to use data from a finance system that contained
control weaknesses. This resulted in amounts reported on the financial statements
that could not be verified by the auditors. DFAS issued “Use of MOCAS
Supplementary Information for Accounts Payable in Financial Statements” on
September 29, 1999. This guidance was to be used to prepare the FY 1999
financial statements. Many DoD accounting systems were not integrated with
logistics and payments systems, and as a result, did not receive the information
necessary for maintaining or developing an accounts payable balance. According
to the DFAS guidance, the greatest deficiency in accounts payable information is
in outside payments made through the Mechanization of Contract Administration
System (MOCAS) for contract payments. The DFAS guidance stated that reports
from MOCAS would be generated and this information was to be used to
supplement the accounts payable amounts in accounting systems when other
transaction or system sources were not used. In our audit report No. 98-007,
“General and Application Controls over the Mechanization of Contract
Administration Services System,” October 9, 1997, we concluded that control
weaknesses existed that made payment data vulnerable to inappropriate
manipulation. Therefore, data extracted from MOCAS had a greater risk of being
unreliable. DoD made $1.7 billion in accounting entries to the Army General
Fund, Navy General Fund, and Air Force General Fund financial statements for
accounts payable data extracted from MOCAS. Although DFAS prepared
guidance to more completely report accounts payable balances, the amounts
reported for accounts payable could not be verified because of system control
weaknesses.

Auditability of DoD Agency-Wide Financial Statements. DoD did not provide
us with the DoD Agency-Wide financial statements for FY 1999 in time for us to
perform all of the necessary audit work. We examined internal controls over the
process for compiling DoD financial statements, and identified internal control
weaknesses and financial management deficiencies that impaired the ability of
DoD to prepare auditable financial statements. Problems with the guidance and
the availability of the financial statements were previously reported in our
Disclaimer of Opinion on the DoD Consolidated Financial Statements for
FY 1998 and FY 1997 (included in the financial statements published by DoD);
IG, DoD, Report No. 99-097, “Internal Controls and Compliance With Laws and
Regulations for the DoD Agency-Wide Financial Statements for FY 1998,” March
1, 1999; and IG, DoD, Report No. 98-161, “Internal Controls and Compliance
With Laws and Regulations for the DoD Consolidated Financial Statements for
FY 1997,” June 22, 1998. Until DoD improves its financial management and
provides the auditors with timely financial statements, DoD will not be able to
achieve favorable audit opinions.




                                    7
Risk Assessment
     For financial reporting purposes, an entity’s risk assessment is its identification,
     analysis, and management of risks relevant to the preparation of financial statements
     following generally accepted accounting principles. The DFAS Indianapolis Center,
     Indianapolis, Indiana, considered the compilation process for the annual financial
     statements for the Army General Fund, Army Working Capital Fund, and the Other
     Defense Organizations-General Funds as a high-risk area and has worked to improve
     this process. At the end of FY 1999, DFAS added contractor support to assist in
     compiling the financial statements. However, the DFAS Indianapolis Center also
     added additional steps to the compilation process. These new steps increased the risk
     of errors and material misstatements because the revised compilation process had not
     been fully tested before use. The DFAS Indianapolis Center expanded the
     compilation process from four to five steps for the Army General Fund, from three to
     five steps for the Army Working Capital Fund, and from three to six steps for the
     Other Defense Organizations-General Funds. This required additional crosswalks,
     queries, and software applications. We support the DFAS decision to allocate
     additional resources to improve the compilation process. However, the procedures
     and crosswalks were not fully mapped and tested before the compilation process
     began. This created problems, and we were unable to test the controls for the new
     process before its execution.


Control Activities and Information and Communication
     Control activities are the various policies and procedures that help ensure that
     necessary actions are taken to address risks to achieve the entity’s objectives.
     Information and communication activities include the accounting system, consisting
     of the methods and records established to record, process, summarize, and report
     entity transactions and to maintain accountability of the related assets and liabilities.
     To be effective, the information and communication system must identify and record
     all valid transactions; describe transactions on a timely basis; properly measure the
     value of transactions; record transactions in the proper time period; properly present
     and disclose transactions; and communicate responsibilities to employees. Control
     activities relate to procedural internal control activities, and information and
     communication activities are system-related internal control activities. During our
     review of DoD internal controls related to control activities and information and
     communication activities, we identified both procedural and system-related problems.

     Procedural Problems. Procedural problems were tied predominantly to
     accounting and reporting procedures and the application of accounting and
     reporting standards. The FMIP acknowledged procedural problems that existed in
     DoD.

     Accounting Entries. DoD processed at least $6.9 trillion in accounting entries to
     the DoD Components’ financial data that affected the amounts reported on the
     DoD Agency-Wide financial statements for FY 1999. These entries were
     processed to force financial data to agree with various data sources, to correct
     errors, and to add new data. Of the $6.9 trillion, proper reconciliations were
     performed and adequate audit trails were available to support $2.6 trillion of these
     entries. However, accounting entries of $2.3 trillion were not supported by

                                           8
 adequate audit trails or sufficient evidence to determine their validity. Because of
 time constraints, we did not review the remaining $2 trillion; therefore, we did not
 determine whether they were adequately supported. The magnitude of accounting
 entries required to compile the DoD financial statements highlights the significant
 problems DoD has producing accurate and reliable financial statements with
 existing systems and processes. The following table identifies the results of our
 review of accounting entries made to the DoD Components’ financial data.



                       Accounting Entries Affecting the
               DoD Agency-Wide Financial Statements for FY 1999
                                  (Billions)
   Reporting        Supported   Unsupported         Unreviewed                   Total
   Entity              Entries          Entries          Entries               Entries
   Army GF              $165.6           $239.9            $14.9                $420.4
                          (98)            (187)              (6)                 (291)
   Army WCF              $54.0           $127.8             $0.0                $181.8
                          (90)            (105)              (0)                 (195)
   Navy GF              $158.9        $1,463.2          $1,781.5              $3,403.6
                         (276)          (9,348)          (4,789)              (14,413)
   Navy WCF             $221.8           $129.6           $245.6                $597.0
                         (109)            (160)            (753)               (1,022)
   Air Force GF       $1,157.0            $66.6             $0.0              $1,223.6
                         (558)             (98)              (0)                 (656)
   Air Force WCF        $218.9            $93.0              0.0                $311.9
                         (481)            (334)              (0)                 (815)
   ODO-GF               $513.3           $122.3              0.4                $636.0
                          (53)             (13)             (19)                  (85)
   ODO-WCF               $65.6            $48.1                *                $113.7
                          (61)            (118)                                  (179)
       Total          $2,555.1        $2,290.5          $2,042.3              $6,888.0
                       (1,726)         (10,363)          (5,567)              (17,656)

* The scope of accounting entries reviewed for the ODO-WCF was limited to DLA and ODO-WCF
 adjustments processed by the DFAS Denver Center. Therefore, the total amount of accounting
 entries to the ODO-WCF financial statements is unknown.


 In FY 1999, we reviewed portions of the accounting entries for DoD reporting
 entities and identified approximately $1.7 trillion in unsupported accounting
 entries made to the FY 1998 DoD Components’ financial statements that affected
 the DoD Agency-Wide financial statements for FY 1998. Despite the increase in
 the amount of unsupported accounting entries from the previous year for some
 reporting entities, some progress has been made by other reporting entities. The
 DFAS Indianapolis Center decreased the amount of unsupported




                                         9
accounting entries processed into the financial data used to compile the Army
General Fund financial statements from $673 billion in FY 1998 to $240 billion in
FY 1999.

Although we determined that proper reconciliations were performed and adequate
audit trails existed to support $2.6 trillion of the accounting entries, it is important
to note that many of these were corrections of errors or resulted from data
provided to the DFAS Centers from outside sources over which they had little or
no direct influence and that could not be verified by auditors.

        Error Corrections. Error corrections of $549 billion to the DoD
Components’ financial data affected the amounts reported on the DoD Agency-
Wide financial statements for FY 1999. Although support existed for these
adjustments, error corrections must be minimized to ensure the integrity of the
financial data.

        Data from Sources Outside of DFAS. Data for some reported amounts
on the balance sheet were obtained from sources outside of DFAS. Although
DFAS had proper support for these accounting entries, the amounts reported could
not be verified by auditors. As previously discussed, the $79.8 billion reported for
Environmental Liabilities could not be verified by the auditors because of
insufficient controls and inadequate audit trails used by DoD to develop the
estimate. In addition, the Assistant Secretary of Defense (Health Affairs)
acknowledged that the $196 billion reported for the military retirement health
benefits liability was unreliable.

As a result of these accounting entries, the DoD Agency-Wide financial
statements for FY 1999 were subject to a high risk of material misstatement. The
lack of research, reconciliation, and audit trails impaired the auditors’ ability to
validate the accounting entries. Additional detail on these accounting entries will
be provided in a separate report.

Fund Balance With Treasury (FBWT). We were unable to assess the reliability
of the $175.6 billion reported for FBWT on the DoD Agency-Wide financial
statements for FY 1999. The DoD disbursing stations and DFAS centers did not
resolve discrepancies between disbursing data and various other data sources, and
the discrepancies continued to affect the accuracy of the FBWT account. As of
September 30, 1999, the U.S. Treasury reported about $7.1 billion (absolute
value) of unreconciled differences to DoD, including differences of $1.5 billion in
deposits, $1.2 billion in interagency transfers, and $4.4 billion in checks issued.

        Army General Fund. Unreconciled differences in checks issued and
online payments and collections for balances over 60 days old at fiscal year’s end
totaled about $339 million and were material with regard to the FBWT balance of
$32.3 billion for the Army General Fund.

        Navy Working Capital Fund. DFAS did not perform cash
reconciliations between disbursing system records and activity general ledgers and
did not retain supporting documentation.

        Other Defense Organizations-General Funds. Instead of using general
ledger accounts, DFAS used data from SF 133, Reports of Budget Execution, to
create trial balances for seven reporting entities included in Other Defense

                                      10
Organizations-General Funds. Reports of Budget Execution do not contain
financial data for the entire scope of an entity’s operations, and are therefore
incomplete. The combined balances from the seven reporting entities totaled $4.4
billion for FBWT.

        Problem Disbursements. DoD had difficulties with its complex and
inefficient payment processes and systems. DFAS has made progress in reducing
in-transit disbursements and has reported progress in reducing the dollar values of
problem disbursements; however, as of FY 1999, DoD reported $12.1 billion
(absolute value) of problem disbursements and in-transit disbursements. The lack
of integrated finance and accounting systems caused disbursing stations to make
disbursements that were accounted for by stations that were not collocated with
the disbursing stations. Problem disbursements occurred when the accountable
station could not match the disbursement to the correct detailed obligation or
when matching the disbursement to the corresponding obligation caused the total
disbursement to exceed the amount of the recorded obligation. In-transit
disbursements occurred when DoD reported a disbursement to the U.S. Treasury,
but the disbursement was not received or was not processed by an accountable
station. DFAS and the DoD Components have spent considerable time and effort
reviewing the causes of problem disbursements and developing actions to reduce
their creation. Problem disbursements and in-transit disbursements can increase
the risks of:

               •   fraudulent or erroneous payments being made without
                   detection,

               •   cumulative amounts of disbursements exceeding appropriated
                   amounts and other legal spending limits, and

               •   inaccurate and unreliable financial reporting.

Further progress in reducing problem disbursements and in-transit disbursements
is essential to meeting DFAS goals and improving the accuracy and reliability of
financial reporting.

         Military Retirement Health Benefits Liability. DoD continued to have
problems with accurately reporting its military retirement health benefits liability.
Outpatient visit data in the Composite Health Care System were unreliable for use
in developing the FY 1998 estimate of the military retirement health benefits
liability. Outpatient medical care services represented $100 billion of the reported
FY 1998 unfunded liability of $223 billion. The Assistant Secretary of Defense
(Health Affairs) agreed that the data were unreliable and acted to improve the
quality of data in time to affect the FY 2001 estimate. Therefore, the FY 1999
estimate of $196 billion was based on unreliable data. In addition to outpatient
visit data, the DoD information used to determine the cost of medical care is being
reviewed by a DoD working group, which is developing more complete cost
information for use in making the estimate.

         Environmental Liabilities. For FY 1999, $79.7 billion reported for DoD
environmental liabilities could not be verified because of insufficient controls and
inadequate audit trails. In addition, several major DoD programs did not develop
total life-cycle cost estimates for demilitarization, disposal, and associated
cleanup. The IG, DoD, issued separate reports on incomplete environmental cost

                                     11
estimates for the following major DoD programs:

              •   The Grizzly, an Army vehicle designed with a full-vehicle-
                  width mine-clearing blade.

              •   The C/KC-135 Stratotanker Aircraft.

              •   The T-45 Undergraduate Jet Pilot Training System.

              •   The UH-60 Black Hawk Helicopter, a utility helicopter.

              •   The F-15 Eagle.

              •   The F-15 Strike Eagle.

              •   The Nimitz-Class Nuclear Aircraft Carrier.

As a result, the Environmental Liabilities reported on the DoD Agency-Wide
financial statements for FY 1999 were unreliable and likely to be materially
understated.

System-Related Problems. System-related problems were tied predominantly to
weaknesses in DoD financial management systems. The FMIP generally discussed
many system-related problems in DoD.

        General Property, Plant, and Equipment. We were unable to verify the
$119.3 billion reported for DoD general PP&E because of a lack of supporting
documentation. We identified significant problems related to the accuracy of data
in DoD real property databases that affected the accuracy of amounts reported for
real property.

              •   The Military Services did not accurately record additions,
                  deletions, and capital improvements made to real property in
                  the databases.

              •   The values in the real property databases may not have been
                  accurately reported. The Military Departments often did not
                  have the documentation required to value the $5.6 billion in
                  changes made to their databases for FY 1999.

              •   Completed real property projects were not always removed
                  from the construction-in-progress account and were not always
                  properly valued.

              •   The Military Departments did not perform the required 5-year
                  periodic inventories as required by the DoD form and content
                  guidance.

              •   Not all real property that met the capitalization threshold was
                  actually capitalized.




                                    12
In addition, the Military Department audit agencies reported the following issues.

         Army General Fund. The auditors reviewed about $408 million of
FY 1999 real property transactions at 23 locations. Transactions valued at about
$113 million, or about 27 percent, were completed in prior periods and should
have been reported in prior periods. In addition, about $43 million of real
property values were omitted from the FY 1999 financial statements because
supporting documentation was not prepared or was not provided to real property
offices.

       Army Working Capital Fund. Army automated systems did not
compute depreciation for real property and did not capitalize the cost of buildings
and improvements to assets.

       Navy Working Capital Fund. Net asset values for general PP&E for
supply management were not transaction-based because no wall-to-wall inventory
was performed to provide values for each item. Controls over net acquisition,
disposals, and capital improvements were not adequate to detect or prevent errors
because of management inattention, insufficient staffing, and lack of training.

        Air Force General Fund. Because of a backlog in recording real property
transactions, the Air Force materially understated the value of real property.
Further, the Air Force reported $1.8 billion of construction-in-progress that could
not be verified because the Air Force did not ensure that the Army Corps of
Engineers and the Naval Engineering Command provided supporting
documentation in sufficient detail to allow auditors to confirm the reported
amounts.

        Air Force Working Capital Fund. Air Force depot maintenance systems
did not follow the percentage-of-completion method of accounting and continue
to account for work-in-process at estimated amounts instead of actual cost.

        Defense Logistics Agency. Auditors could not verify that the reported
$2.6 billion acquisition value of PP&E and the $1.62 billion of accumulated
depreciation reported for the Defense Logistics Agency were complete and
accurate. The Defense Logistics Agency and DFAS had not fully developed
procedures to reconcile the PP&E recorded in the property system with
information in the accounting system, and Defense Logistics Agency personnel
misinterpreted DoD financial reporting policy.

        Required Supplementary Stewardship Information. Stewardship
information includes national defense PP&E, heritage assets, stewardship land, non-
Federal physical property, and research and development. The SFFAS gave
conflicting guidance. The original SFFAS No. 8, the exposure draft for SFFAS Nos.
6 and 8, did not agree with SFFAS No. 11, which officially amended SFFAS Nos. 6
and 8. In addition, the Federal Accounting Standards Advisory Board was holding
deliberations on whether or not to present historical cost for stewardship assets. This
information was not required to be audited, and we did not audit the information.




                                     13
        Inventory and Related Property. DoD financial management systems were
unable to accurately report amounts reported for inventory and related property on
the DoD Agency-Wide financial statements for FY 1999. The inventory and related
property line item consists of inventory, operating materials and supplies, and
stockpile materials. Internal controls over inventory were inadequate. In addition,
DoD Components were unable to value operating materials and supplies at historic
cost, did not use generally accepted accounting principles to expense operating
materials and supplies, and had not completed development of a standard definition
of items that constitute operating materials and supplies.

        Army General Fund. Internal controls were not fully effective over the
reporting of munitions as inventory and the related impact on stewardship reporting.
The Army did not have controls to ensure that $2.4 billion of missile-related
equipment reported on the stewardship report was subtracted from the value of
munitions reported on the balance sheet.

        Army Working Capital Fund. At Army retail storage locations, the
financial records were not reconciled with the logistical records, and storage
locations did not process receipt and turn-in transactions in a timely manner. In
addition, the Army did not have reliable data on the value of items in transit.

       Navy General Fund. The amount reported for inventory on the Navy
General Fund financial statements could not be verified because reporting systems
were not designed to ensure that all inventory items were included in the values
reported. In addition, shipboard operating materials and supplies were excluded
because the systems used to report the values could not fully support the required
accounting methodology.

        Navy Working Capital Fund. Inventory was not accurately reported
because the inventory valuation model contained material misstatements caused by
weaknesses in the standard operating procedures and by the treatment of accounts
that were period gains and losses as allowances. In addition, inventory in-transit
from customers and inventory for agency operations (supplies and materiel) could
not be verified because Navy Working Capital Fund logistics activities and the
DFAS Cleveland Center, Cleveland, Ohio, did not reconcile the general ledger
account balances to subsidiary records.

        Air Force General Fund. The Air Force used standard price to value
operating materials and supplies, which did not comply with Federal accounting
standards, and did not recognize holding gains and losses related to revaluation of
operating materials and supplies. In addition, the Air Force did not revalue operating
materials and supplies at their net realizable value when they were identified as
excess, obsolete, or unserviceable in accordance with Statement of Federal Financial
Accounting Standards (SFFAS) No. 3.

       Air Force Working Capital Fund. System limitations prevented the
Air Force from providing sufficient audit trails to confirm and value the in-transit
inventory reported as part of inventory held for sale.




                                     14
        Defense Logistics Agency. The Defense Logistics Agency logistics and
financial systems did not capture the data needed to value year-end inventories at
historical cost, and insufficient information was available from the Defense Logistics
Agency during the audit for us to assess the accuracy of the inventory pricing data in
the logistics systems.

Statement of Budgetary Resources. We were not able to obtain sufficient
evidence to support amounts reported on the Statement of Budgetary Resources.
In some cases, DoD did not use a transaction-driven general ledger to prepare the
Statement of Budgetary Resources, and audit trails were inadequate.

        Army General Fund. Personnel at the DFAS Indianapolis Center had to
rely on fund control data for part of the data reported in the Statement of
Budgetary Resources instead of using accounting data from the general ledger, as
required. Personnel had to develop crosswalks and complicated formulas to
convert the data for the Statement of Budgetary Resources. The lack of financial
management systems and the use of alternative procedures for preparing the
financial statements meant that adequate audit trails were not available.

        Army Working Capital Fund. The DFAS Indianapolis Center did not
use the general ledger to prepare the Statement of Budgetary Resources. Instead,
the DFAS Indianapolis Center used information from budgetary reports. Auditors
were unable to verify the reported amounts because detailed transactions were not
available for review.

        Navy General Fund. Controls for disbursement and collection functions
were not adequate to ensure that documentation was available to support all
transactions. This deficiency limited the auditors’ ability to attest to the validity
of the reported transactions and subsequently the balance of outlays on the
Statement of Budgetary Resources.

       Air Force Working Capital Fund. The DFAS Columbus Center,
Columbus, Ohio, could not provide documentation to support $149 million in
disbursements, collections, and adjustments for 119 of 345 transactions tested that
were reported on the Air Force Working Capital Fund financial statements.

        Other Defense Organizations-General Funds. Controls used to compile
departmental Reports of Budget Execution, which were later used to compile the
Statement of Budgetary Resources, did not provide reasonable assurance that the
information on those reports was accurate and reliable. The Reports of Budget
Execution were not reliable because the DFAS Indianapolis Center did not
adequately footnote $3 billion of abnormal balances and made at least $13.4
billion of unsupported adjustments to force the report to match U.S. Treasury
records.

Information Security. Security and application controls over financial
management systems are critical to ensuring the integrity of data reported on the
DoD Agency-Wide financial statements for FY 1999. DoD has become
increasingly dependent on automated information systems to carry out its
operations and to process, maintain, and report information in the annual financial
statements. To date, DoD has identified at least 168 automated systems that
process, maintain, and report financial information. We issued four reports that
identified security and application control weaknesses over systems that affected

                                     15
the amounts reported on the DoD Agency-Wide financial statements for FY 1999.

        Defense Civilian Pay System. The Defense Civilian Pay System serves
773,000 employees and processes more than $38 billion in payroll transactions
annually. We concluded in IG, DoD, Report No. 99-128, “Computer Security for
the Defense Civilian Pay System,” April 7, 1999, that DFAS and the Defense
Information Security Agency needed to improve computer security over the
Defense Civilian Pay System and its mainframe computers. For example, user
access to sensitive privileges and mandatory password requirements were not
adequately controlled, inactive user identifications were not deleted when access
was no longer required, and password controls were not adequately administered.
Although no instances of fraud or abuse were detected, the integrity of the civilian
pay data was at risk.

        Retiree and Casualty Pay Subsystem. The Retiree and Casualty Pay
Subsystem accounted for 1.8 million retirees and disbursed an average of
$22.8 billion from the DoD Military Retirement Fund in FY 1998. We concluded
in IG, DoD, Report No. 99-083, “Application Controls Over the Retiree and
Casualty Pay Subsystem at the Defense Finance and Accounting Service
Cleveland Center,” February 23, 1999, that DFAS did not fully implement or
maintain controls over the accuracy of information in the Retiree and Casualty
Pay Subsystem. Although we did not detect unauthorized or fraudulent activity,
controls needed to be strengthened to ensure that data were accurate.

        Annuitant Pay Subsystem. The Annuitant Pay Subsystem accounted for
more than 257,000 annuitants and disbursed an average of $1.7 billion from the
DoD Military Retirement Fund in FY 1998. We concluded in IG, DoD, Report
No. 99-110, “Application Controls Over the Annuitant Pay Subsystem at the
Defense Finance and Accounting Service Denver Center,” March 23, 1999, that
DFAS had not fully implemented or maintained controls over the accuracy of
information in the system. Although we did not detect unauthorized or fraudulent
activity, controls needed to be strengthened to ensure the accuracy of annuity
payments.

        General Accounting and Finance System. The General Accounting and
Finance System accommodates the Air Force’s standard appropriation accounting
records, including funding authority, commitments, obligations, and balances of
available funds. The system processes approximately $125 billion in transactions
annually. We concluded in IG, DoD, Report No. 99-233, “General Controls of
the General Accounting and Finance System,” August 17, 1999, that the General
Accounting and Finance System’s general controls were limited and could not
provide reasonable assurance that the program and data files were protected from
unauthorized access and modification. As a result, auditors may not be able to
rely on data from the General Accounting and Finance System without substantial
verification.




                                     16
Monitoring
     Monitoring assesses the quality of internal control performance over time and
     involves assessing the design and operation of controls on a timely basis and
     taking the necessary corrective actions. Monitoring activities are accomplished
     through ongoing activities, separate evaluations, or a combination of the two.

     DoD conducted significant monitoring activities during FY 1999. DoD continued
     to revise the FMIP and the Implementation Strategies to identify and address
     financial management problems and the remedies in place to correct financial
     management practices and systems. DoD made progress in implementing the
     FMIP and the Implementation Strategies. However, DoD must continue to revise
     and improve these efforts to ensure that progress continues toward improved
     financial management.

     We identified areas where DoD could improve its monitoring activities related to
     the preparation of the DoD Agency-Wide financial statements for FY 1999. We
     determined that a primary cause of inconsistent, inaccurate, and incomplete
     reporting was the inability of DoD to perform adequate reviews and
     reconciliations while preparing the financial statements. As previously discussed,
     we identified $2.3 trillion in unsupported accounting entries that affected amounts
     reported on the DoD Agency-Wide financial statements for FY 1999. Many of
     these entries were the result of inadequate reviews and reconciliations. Reviews
     and reconciliations are a key monitoring activity that help to identify problems in
     financial management and reporting. Implementation and consistent use of
     reviews and reconciliations will improve the ability of DoD to identify and solve
     problems and produce auditable financial statements.

Assessment of Fraud Risk
     SAS No. 82 requires us to specifically assess the risk of material misstatement of
     the DoD Agency-Wide financial statements for FY 1999 due to fraud, and to
     consider that assessment in designing audit procedures to be performed. SAS
     No. 82 describes two types of fraud that are relevant to the auditors’ consideration
     of fraud in a financial statement audit: misstatements arising from fraudulent
     reporting and misstatements arising from misappropriation of assets. For each of
     the two types of fraud, SAS No. 82 identifies fraud risk factors that auditors
     should consider.


Risk Factors for Misappropriation of Assets
     Risk factors for misappropriation of assets included:

             •   large amounts of cash on hand or processed;

             •   inventory characteristics, such as small size, high volume, or high
                 demand;

             •   lack of appropriate management oversight;

                                          17
            •   inadequate recordkeeping;

            •   lack of appropriate segregation of duties or independence checks;

            •   lack of an appropriate system for authorization and approval of
                transactions;

            •   poor physical safeguards over assets; and

            •   lack of timely and appropriate documentation for transactions.

     All audits conducted by the IG, DoD, include steps to provide reasonable
     assurance of detecting fraud or other illegal acts. Any suspected instances of
     fraud or other illegal acts are coordinated with the Defense Criminal Investigative
     Service. Most of these referrals involve misappropriation of assets. In February
     2000, the Defense Criminal Investigative Service had about 80 open cases that
     involved DoD financial operations.

     We were unable to determine the effects of these fraud investigations on the DoD
     Agency-Wide financial statements for FY 1999. However, these investigations
     demonstrated that DoD was vulnerable to misappropriation of assets. This is
     particularly true for DoD contractors or DoD employees with malicious intent.
     Their knowledge of systemic weaknesses in DoD would make it easier for them to
     commit and disguise inappropriate actions.


Risk Factors for Fraudulent Financial Reporting
     Risk factors for fraudulent financial reporting included:

            •   motivation for management to engage in fraudulent financial reporting;

            •   failure of management to display and communicate an appropriate
                attitude regarding internal controls and the reporting process;

            •   excessive participation by nonfinancial management in selecting
                accounting principles or determining significant estimates;

            •   assets, liabilities, revenues, and expenses based on significant
                estimates that involved unusually subjective judgments or
                uncertainties; and

            •   significant, unusual, or highly complex transactions or adjustments,
                especially those close to year’s end, that posed difficult questions.

     Based on our financial audits, we determined that many of the fraudulent financial
     reporting risk factors were present within DoD. For example:

            •   DFAS processed substantial unsupported year-end adjustments to
                prepare and ensure consistency in DoD financial statements.




                                          18
           •   DoD reporting entities were unable to provide auditors with adequate
               audit trails linking financial statement data to supporting transaction-
               level data.

           •   DoD reporting entities were unable to demonstrate adequate
               accounting control over DoD assets.

           •   DoD financial management processes and systems and controls were
               not adequate.

    These examples are discussed in greater detail in this report in the section on
    Control Environment and the section on Control Activities and Information and
    Communication.

    The presence of these risk factors did not necessarily indicate fraudulent financial
    reporting. However, the presence of these risk factors in DoD, combined with the
    fraud investigations conducted by the Defense Criminal Investigative Service,
    indicated an increased level of risk of material misstatements and that the control
    environment in DoD was susceptible to fraudulent financial reporting. The
    existence of many of these fraud risk factors was due to the fact that financial
    reporting in DoD is an evolving process. DoD is adapting many existing
    nonfinancial procedures and systems to fulfill more stringent financial
    management and reporting requirements.

Conclusion
    Although considerable progress has been made, DoD internal controls were not
    adequate to ensure that resources were properly managed and accounted for, that
    DoD complied with applicable laws and regulations, and that the financial
    statements were free of material misstatements. DoD internal controls did not
    ensure that accounting entries impacting financial data were fully supported and
    that assets, liabilities, costs, and budget resources were properly accounted for and
    reported. DoD financial reporting guidance was inadequate, and DoD did not
    provide the financial statements to the auditors in a timely manner. These
    problems are not new, but are recurring problems that DoD needs to address and
    correct.

    The material weaknesses and reportable conditions we identified were also
    reported in the management representation letter for the DoD Agency-Wide
    financial statements for FY 1999, the DoD Annual Statement of Assurance for
    FY 1999, and the DoD FMIP.




                                         19
Management Comments
    The Deputy Chief Financial Officer commented that DoD did not have time to
    review and determine the validity of assertions in the report. The DoD has a two-
    track approach to comply with new Federal accounting standards. The DoD does
    not expect to have systems necessary to meet these new requirements before the
    year 2000. The DoD has undertaken an interim track that includes the use of
    contractors to address many of the existing deficiencies. As a result, DoD expects
    to make incremental progress in addressing a number of financial management
    challenges that impact the ability to produce audited financial statements. The
    complete text of the comments is at Appendix C.




                                        20
Review of Compliance With Laws and
Regulations
Reportable Noncompliances
     Reportable instances of noncompliance are failures to follow requirements, laws,
     or regulations that cause us to conclude that the aggregation of the misstatements
     resulting from those problems is either material to the financial statements, or that
     the sensitivity of the matter would cause others to perceive it as significant.

     Our objective was to assess the compliance with laws and regulations related to
     the DoD Agency-Wide financial statements for FY 1999 and not to express an
     opinion. Therefore, we do not express an opinion on compliance with laws and
     regulations. DoD did not fully comply with laws and regulations that had a direct
     and material affect on its ability to determine financial statement amounts. We
     identified noncompliance issues related to the Federal Financial Management
     Improvement Act of 1996 (FFMIA), the Chief Financial Officers Act of 1990
     (CFO), and the Government Performance and Results Act of 1993 (GPRA).


Federal Financial Management Improvement Act of 1996
     Under the FFMIA, section 3512, title 31, United States Code (31 U.S.C. 3512),
     we are required to report whether the agency’s financial management systems
     substantially comply with Federal financial management systems requirements,
     Federal accounting standards, and the U.S. Government Standard General Ledger
     (USGSGL) at the transaction level. To meet this requirement, we performed tests
     of compliance using the implementation guidance for FFMIA included in the
     OMB Bulletin, “Audit Requirements for Federal Financial Statements.”

     The results of our tests disclosed instances where the agency’s financial
     management systems did not substantially comply with the three requirements.
     The Military Departments, Defense agencies, and DFAS are collectively
     responsible for the financial management systems that support DoD. The Military
     Departments and Defense agencies are responsible for the mixed data systems that
     supply approximately 80 percent of the data reported on the financial statements.
     These data are fed into the accounting and finance systems that are the
     responsibility of DFAS. DFAS used data from the financial management systems
     and other sources to compile the DoD Agency-Wide financial statements for
     FY 1999. DoD identified at least 168 systems that were critical to financial
     management. Because it is impractical to report the deficiencies for all
     168 systems, this report gives examples of the most significant system
     deficiencies.

     Federal Financial Management System Requirements. Federal financial
     management system requirements were established in OMB Circular No. A-127,
     “Financial Management Systems,” July 23, 1993, which requires financial
     management systems to provide complete, reliable, consistent, timely, and useful
     information. To achieve this goal, DoD and other Federal agencies must establish


                                          21
and maintain a single, integrated financial management system. In addition, the
Joint Financial Management Improvement Program has published a series of
“Federal Financial Management System Requirements” that establishes standard
requirements for Federal agencies’ integrated financial management systems. For
FY 1999, the financial management systems that support DoD did not
substantially comply with Federal financial management system requirements, as
shown by the following.

       •   DoD did not have an integrated financial management system.

       •   The FMIP did not include all financial management systems that
           supported the Army WCF.

       •   Controls over access to financial management feeder systems for the
           Navy Working Capital Fund were not adequate to prevent
           unauthorized access to financial information.

       •   Financial management systems that supported the Air Force General
           Fund contained system control weaknesses. The primary control
           weaknesses were related to audit trails, access controls, configuration
           management, completeness, and accreditation.

       •   Adequate application controls, such as separation of duties, support for
           transactions, transaction controls, and data reconciliation were not in
           place for critical mixed systems for the Air Force Working Capital
           Fund.

       •   Transactions were not posted to the general ledger of accounts of the
           Other Defense Organizations-General Funds to which they should
           have been distributed.

Federal Accounting Standards. Federal agencies reporting under the Federal
Financial Management Act of 1994 are to follow the Statements of Federal
Financial Accounting Standards (SFFAS) agreed to by the Director, OMB; the
Comptroller General of the United States; and the Secretary of the Treasury.
Currently, there are 13 SFFAS and 3 Statements of Federal Financial Accounting
Concepts (SFFAC). For FY 1999, the financial management systems that
supported DoD did not substantially comply with Federal accounting standards, as
shown by the following.

       •   DoD financial management systems did not properly account for assets
           and liabilities in accordance with SFFAS No. 1.

       •   DoD financial management systems did not value inventory in
           accordance with SFFAS No. 3.

       •   DoD financial management systems did not value PP&E in accordance
           with SFFAS No. 6.

       •   DoD financial management systems did not account for accounts
           receivable and accounts payable in accordance with SFFAC No. 1.



                                    22
      USGSGL at the Transaction Level. The OMB requires Federal agencies to
      implement the USGSGL in their financial systems. The USGSGL must be
      implemented at the transaction level. Federal agencies are permitted to
      supplement their application of the USGSGL to meet agency-specific information
      requirements. However, agency standard general ledgers must maintain
      consistency with the USGSGL. For FY 1999, DoD finance and accounting
      systems lacked a standard, transaction-driven general ledger because the USGSGL
      was not fully implemented throughout the systems.

      DoD has acknowledged that its financial management systems have significant
      procedural and systemic deficiencies, and has included a discussion of those
      deficiencies in previous Annual Statements of Assurance, the management
      representation letter for the DoD Agency-Wide financial statements for FY 1999,
      and the FMIP.


Chief Financial Officers Act of 1990
      The CFO Act, 31 U.S.C. 501, as amended by the Federal Financial Management
      Act of 1994, required DoD to prepare audited financial statements and submit
      them to OMB no later than March 1, 1999. In addition, the CFO Act required
      DoD to prepare a Five-Year Financial Management Plan describing activities that
      DoD will conduct during the next 5 years to improve financial management. We
      did not receive the financial statements in sufficient time to conduct all of our
      necessary audit procedures. Further, the financial statements we received were
      unauditable. The FMIP addressed the requirement in the CFO Act for a Five-Year
      Financial Management Plan.


Section 31, Title 31, United States Code
      The evaluation and reporting requirements of the Federal Financial Managers’
      Integrity Act of 1982 for an agency’s internal accounting and administrative
      control systems were incorporated in 31 U.S.C. 3512. That section requires DoD
      to evaluate the systems and to annually report whether those systems are in
      compliance with 31 U.S.C. 3512. DoD fulfilled part of the FMFIA requirement
      by including the discussion of financial management system deficiencies, usually
      published as part of the Annual Statement of Assurance, in its FMIP. The Annual
      Statement of Assurance and the FMIP discussed systemic and nonsystemic
      internal control weaknesses and corrective measures under way to correct the
      weaknesses. However, as previously discussed, DoD has not completed its
      evaluation of all the finance, accounting, and feeder systems that have been
      identified for long-term use. Therefore, DoD was unable to completely report all
      system weaknesses. The Office of the USD(C) tasked the DoD Components with
      completing the remaining system evaluations by March 31, 2000.




                                         23
Government Performance and Results Act of 1993

     The GPRA, 31 U.S.C. 1101, was enacted primarily to improve the confidence of
     the American people in the capability of the Federal Government by
     systematically holding Federal agencies accountable for achieving program
     results. OMB Bulletin No. 97-01, as amended, requires that DoD include GPRA-
     related information in the financial statements, specifically:

            •   the Overview section of the DoD Agency-Wide financial statements is
                to contain a discussion of GPRA performance measures, and

            •   the program cost categories reflected in the Statement of Net Cost
                should be consistent with the DoD GPRA Performance Plan as
                published in the Annual Defense Report.

     Financial Statement Overview. The CFO did not provide an adequate
     discussion of performance measures in the Overview. The Overview discussed
     only two goals: to reduce the number of accounting and finance systems and to
     achieve unqualified audit opinions on the financial statements. However, the
     Overview did not discuss the relationship with DoD corporate-level and
     7 performance goals contained in the FY 1999 DoD GPRA performance plan.
     For example, the GPRA performance plan included the following performance
     goals:

            •   Maintaining sufficient airlift and sealift capability, with adequate
                prepositioning, to move military forces from the United States to any
                location in the world.

            •   Transforming U.S. forces for the future.

            •   Streamline the DoD infrastructure by redesigning the Department’s
                support structure and pursuing practice reforms.

Conclusion
     Noncompliance with laws and regulations affected the DoD Agency-Wide
     financial statements for FY 1999. Many noncompliance issues were related to
     deficiencies in financial management systems and may not be fully corrected for a
     number of years. Other noncompliance issues were not specifically related to
     system deficiencies and should be correctable in the near future. All instances of
     noncompliance, including those not identified in this report, should be identified
     and addressed in the FMIP and related supporting documents, and DoD should
     plan for proper corrective actions. Improvements in compliance with laws and
     regulations are essential for DoD to improve financial management and reporting
     and will enhance the ability of DoD to achieve a favorable audit opinion. We
     reported similar instances of noncompliance with laws and regulations in FY
     1998.




                                         24
Appendix A. Audit Process

Scope
    Statements Reviewed. We examined the DoD Agency-Wide financial
    statements for FY 1999, the footnotes to the financial statements, the Overview,
    Required Supplemental Stewardship Information, and Required Supplemental
    Information. The financial statements consist of the Balance Sheet, Statement of
    Net Cost, Statement of Changes in Net Position, Statement of Budgetary
    Resources, Statement of Financing, and Statement of Custodial Activity. DoD did
    not provide the DoD Agency-Wide financial statements for FY 1999 in time for
    us to perform all of the necessary audit work.

    Scope Limitation. The CFO did not provide sufficient or reliable information for
    us to evaluate management’s assertions or verify amounts on the DoD Agency-
    Wide financial statements for FY 1999. The lack of timely financial statements is
    a scope limitation. Because of the scope limitation and deficiencies in the
    accounting system and internal controls, the scope of our work was not sufficient
    to allow us to render an opinion on the DoD Agency-Wide financial statements
    for FY 1999. To report on the internal controls and compliance with laws and
    regulations, we relied in part on audit work conducted by the Military Department
    audit agencies (the Army Audit Agency, the Naval Audit Service, and the
    Air Force Audit Agency). Our combined audit efforts provide a reasonable basis
    for our results.

    Accounting Principles. Accounting principles and standards for the Federal
    Government have been established and are under continuous development and
    refinement. The Federal Accounting Standards Advisory Board was established
    by OMB, the U.S. Department of the Treasury, and the General Accounting
    Office. On October 19, 1999, the American Institute of Certified Public
    Accountants recognized the Federal Accounting Standards Advisory Board as the
    body that establishes generally accepted accounting principles for Federal
    Government entities. Therefore, SFFAS issued by the Federal Accounting
    Standards Advisory Board are recognized as generally accepted accounting
    principles for applicable Federal Government entities.

    Agencies are required to follow the hierarchy of accounting principles outlined in
    OMB Bulletin No. 97-01, as amended. The hierarchy is as follows: standards
    agreed to and published by the Director, OMB, the Secretary of the Treasury, and
    the Comptroller General of the United States; interpretations of SFFAS issued by
    OMB; requirements for the form and content of financial statements outlined in
    OMB Bulletin No. 97-01, as amended; and accounting principles published by
    other authoritative sources.

    Review of Internal Controls. In planning and performing our audit, we
    considered DoD internal controls over financial reporting by obtaining an
    understanding of the agency’s internal controls. We determined whether the
    controls had been placed in operation; we assessed control risk; and we performed
    tests of controls in order to determine our auditing procedures for the purpose of


                                        25
expressing our opinion on the financial statements. Our purpose was not to
provide assurance on internal controls over financial reporting. Consequently, we
do not express an opinion on DoD internal controls.

DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
requires DoD organizations to implement a comprehensive system of management
controls that provides reasonable assurance that programs are operating as
intended and to evaluate the adequacy of controls. Because of DoD material
weaknesses in internal controls, we revised our audit approach to focus on
specific internal controls. We obtained an understanding of management’s
process for evaluating and reporting on the internal controls and accounting
systems and compared the material weaknesses in financial reporting, as reported
in the entity’s annual statement of assurance, to the material weaknesses and
reportable conditions we identified. A copy of this report will be provided to the
USD(C), who is the senior official in charge of management controls for DoD.

We performed a review of the performance information presented in the Overview
of the DoD Agency-Wide financial statements for FY 1999. We obtained an
understanding of the internal controls related to assertions about the existence and
completeness of assets and determined whether they were placed into operation.
We also reviewed the preparation of the performance information relating to the
summarization and reporting of performance measure information in conformance
with OMB Bulletin No. 97-01, as amended.

Review of Compliance With Laws and Regulations. DoD management is
responsible for complying with laws and regulations applicable to the agency. As
part of obtaining reasonable assurance about whether the DoD Agency-Wide
financial statements for FY 1999 were free of material misstatement, we
performed tests of its compliance with certain provisions of laws and regulations.
A reportable noncompliance could have a direct and material effect on the
determination of financial statement amounts and certain other laws and
regulations specified in the OMB Bulletin, “Audit Requirements for Federal
Financial Statements.” Our review also included the requirements referred to in
the FFMIA. See Appendix B for a list of laws and regulations reviewed.

DoD-Wide Corporate Level GPRA Goals. In response to GPRA, the DoD has
established 2 DoD-Wide corporate level performance objectives and 7 goals for
meeting these objectives. This report pertains to achievement of the following
objective and goal:

       •   Objective: Fundamentally reengineer DoD and achieve a 21st century
           infrastructure. Goal: Reduce costs while maintaining required
           military capabilities across all DoD mission areas. (DoD-6)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objectives and
goals:




                                    26
           •   Financial Management Functional Area: Objective: Reengineer
               DoD business practices. Goal: Improve data standardization of
               finance and accounting data items. (FM-4.4)

           •   Financial Management Functional Area: Objective: Strengthen
               internal controls. Goal: Improve compliance with FMFIA. (FM-5.3)

    DoD is currently revising its approach to the GPRA implementation, and will
    implement new corporate lead goals and performance measures for FY 2001.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high risk area.

Methodology
    Auditing Standards. We conducted this financial statement audit in accordance
    with generally accepted Government auditing standards issued by the Comptroller
    General of the United States, as implemented by the IG, DoD, and the OMB
    Bulletin, “Audit Requirements for Federal Financial Statements.” Those
    standards require that we plan and perform the audit to obtain reasonable
    assurance about whether the principal statements present fairly, in all material
    respects, in conformity with Federal accounting standards, the assets, liabilities,
    and net position; net costs; changes in net position; budgetary resources;
    reconciliation of net costs to budgetary obligations; and if applicable, custodial
    activity. To assess the materiality of matters affecting the fair presentation of the
    financial statements and related internal control weaknesses, we relied on the
    guidelines suggested by the General Accounting Office and on our professional
    judgment.

    Audit Assistance. The Military Department audit agencies assisted us by
    auditing various reporting entities and accounts. Except for deficiencies unique to
    the consolidation process, the information in this report is a summary of the most
    significant issues reported by the IG, DoD, and the Military Department audit
    agencies.

    Computer-Processed Data. We could not rely on the computer-processed data
    used to prepare the DoD Agency-Wide financial statements for FY 1999. DoD
    financial management systems were unreliable; therefore, the financial statements
    were unauditable. DoD has candidly addressed deficiencies in its financial
    management systems in the Annual Statement of Assurance, the FMIP, and the
    management representation letter for FY 1999. Unreliable computer-processed
    data were used in preparing the financial statements and this report because they
    were the only financial data available. We continue to review the adequacy of
    existing and proposed financial management systems.

    Statistical Sampling Methods. We relied on information in audit reports and
    summaries and in management reports. We did not use statistical sampling
    methods.




                                         27
    Audit Period and Locations. We conducted the audit from September 1999
    through February 2000 at various DoD activities, including DFAS and the
    Military Departments.

    Representation Letters. We received the management representation letter from
    the USD(C) on February 16, 2000, and the legal representation letter from the
    General Counsel, DoD, on February 15, 2000. Exhibit 1 is the management
    representation letter and Exhibit 2 is the legal representation letter.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in DoD. Further details are available on request.

Summary of Prior Coverage
    The GAO and the IG, DoD, have conducted multiple reviews related to financial
    statement issues. GAO reports can be accessed on the Internet at
    http://www.gao.gov. IG, DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil.




                                      28
Appendix B. Laws and Regulations Reviewed
   Public Law 104-208, “Federal Financial Management Improvement Act of 1996,”
   September 30, 1996

   Public Law 103-356, “Government Management Reform Act of 1994,”
   October 13, 1994 (Title IV of this Act may be cited as the “Federal Financial
   Management Act of 1994”)

   Public Law 103-62, “Government Performance and Results Act of 1993,”
   August 3, 1993

   Public Law 101-576, “Chief Financial Officers Act of 1990,” November 15, 1990

   Public Law 97-255, “Federal Managers’ Financial Integrity Act of 1982,”
   September 8, 1982

   National Defense Authorization Act for FY 1998

   OMB Bulletin,“Audit Requirements for Federal Financial Statements”

   OMB Bulletin No. 97-01, “Form and Content of Agency Financial Statements,”
   October 16, 1996, as amended November 20, 1998

   OMB Circular No. A-127, “Financial Management Systems,” July 23, 1993

   Statements of Federal Financial Accounting Concepts No. 2, “Entity and
   Display,” June 6, 1995

   Statements of Federal Financial Accounting Concepts No. 1, “Objectives of
   Federal Financial Reporting,” September 2, 1993

   Statements of Federal Financial Accounting Standards No. 9, “Deferral of the
   Effective Date of Managerial Cost Accounting Standards for the Federal
   Government in SFFAS No. 4,” November 3, 1997

   Statements of Federal Financial Accounting Standards No. 8, “Supplementary
   Stewardship Reporting,” June 11, 1996

   Statements of Federal Financial Accounting Standards No. 7, “Accounting for
   Revenue and Other Financing Sources,” May 10, 1996

   Statements of Federal Financial Accounting Standards No. 6, “Accounting for
   Property, Plant, and Equipment,” November 30, 1995

   Statements of Federal Financial Accounting Standards No. 5, “Accounting for
   Liabilities of the Federal Government,” December 20, 1995

   Statements of Federal Financial Accounting Standards No. 4, “Managerial Cost
   Accounting Concepts and Standards for the Federal Government,” July 31, 1995


                                       29
Statements of Federal Financial Accounting Standards No. 3, “Accounting for
Inventory and Related Property,” October 27, 1993

Statements of Federal Financial Accounting Standards No. 2, “Accounting for
Direct Loans and Loan Guarantees,” August 23, 1993

Statements of Federal Financial Accounting Standards No. 1, “Accounting for
Selected Assets and Liabilities,” March 30, 1993

Joint Financial Management Improvement Program, “Core Financial Systems
Requirements,” September 1995

Joint Financial Management Improvement Program, “Inventory System
Requirements,” June 1995

Joint Financial Management Improvement Program, “Framework for Federal
Financial Management Systems,” January 1995

Joint Financial Management Improvement Program, “Direct Loan System
Requirements,” December 1993

Joint Financial Management Improvement Program, “Guaranteed Loan System
Requirements,” December 1993

Joint Financial Management Improvement Program, “Seized/Forfeited Asset
System Requirements,” March 1993

Joint Financial Management Improvement Program, “Travel System
Requirements,” January 1991

Joint Financial Management Improvement Program, “Personnel/Payroll System
Requirements,” May 1990

DoD Directive 5010.38, “Management Control Program,” August 26, 1996

DoD Instruction 7000.14-R, “DoD Financial Management Policy and
Procedures,” various dates

Additional laws and regulations were identified and discussed in other IG, DoD,
and Military Department audit agency reports used to develop this report.




                                   30
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          32
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          33
Exhibit 1. Management Representation
           Letter
Exhibit 2. Legal Representation Letter
Exhibit 3. Auditor Opinion
  Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report.

  F. Jay Lane
  Richard B. Bird
  Jack L. Armstrong
  Cindi M. Miller
  Delpha W. Martin
  Leslie M. Barnes
  John E. Aber
  Cheri D. Givens
  Susanne B. Allen
